U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                PUBLIC
               RELEASE


           BUREAU OF THE CENSUS
           A Better Strategy Is Needed for
Managing the Nation’s Master Address File
        Inspection Report No. OSE-12065/September 2000




                            Office of Systems Evaluation
U.S. Department of Commerce                                                                                   Report OSE-12065
Office of Inspector General                                                                                     September 2000

                                                        Table of Contents

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

I. Sufficient Time Not Available to Ensure High Quality Address Data . . . . . . . . . . . . . . . . . . 13
       A.      High Levels of Data Quality Not Achieved for Initial DMAF . . . . . . . . . . . . . . . 13
       B.      LUCA 98 Schedule Slips and Bureau Policy Reduced the Effectiveness of
                Block Canvassing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
       C.      Insufficient Time Also Contributed to Erroneous Addresses
               on the Initial DMAF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

II.       The Bureau Has Taken Steps to Improve Address Data Quality,
          but More Should Be Done . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
          A.    The Bureau Identified Some Erroneous Addresses and
                Flagged Them As Ineligible for Nonresponse Followup . . . . . . . . . . . . . . . . . . . 18
          B.    The Bureau’s Policy for Determining Address Eligibility
                During the Census Is Not Well-Defined . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
          C.    The Bureau Should Use the MAF as a Management Tool . . . . . . . . . . . . . . . . . . 20

III.      Improved Software Engineering Standards Could Improve Data Quality . . . . . . . . . . . 21
          A.    Consistency Between MAF and TIGER Not Easily Maintained . . . . . . . . . . . . . 21
          B.    Software Engineering Standards Will Support Modernization . . . . . . . . . . . . . . 22

IV.       Success in Meeting Housing Unit Accuracy and Completeness Goals
          Should Be Reported . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
          A.    The Bureau Has Housing Unit Coverage Goals and Evaluation Plans . . . . . . . . 24
          B.    The Annual Performance Plan and Report Should Be Used to Report
                Housing Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

APPENDICES:                     A.         Acronyms Used in This Report
                                B.         Bureau Response
U.S. Department of Commerce                                                  Report OSE-12065
Office of Inspector General                                                    September 2000

                                  EXECUTIVE SUMMARY

The 2000 Decennial Census enumerates the U.S. population and housing as of April 1, 2000.
This evaluation focuses on the Master Address File (MAF), which supplies addresses used to
support operations responsible for mailing out questionnaires, enumerating nonresponding
households, and controlling the collection and tabulation of population data. The quality of
MAF addresses directly affects the accuracy, completeness, and cost of the decennial. In the
1990 decennial, one-third of persons missed were not counted because address data for their
housing units was missing from the address file. Also, the General Accounting Office reported
in the 1990 decennial that the bureau spent $317 million on operations to identify 4.8 million
nonexistent housing units and 8.6 million vacant housing units and to remove the former from
the address file.

To address questions raised regarding how well programs to create the MAF for Census 2000
were working and what its quality would be at the start of the decennial, the bureau decided in
1997 to reengineer the MAF-building strategy. The objectives of our evaluation were to (1)
determine if steps taken to improve the MAF before delivery of the address file worked as
planned, (2) assess steps taken to identify and correct MAF data quality problems as the
decennial progressed, (3) determine whether the software development approach ensured high
quality data, and (4) evaluate whether the data quality standard for the MAF provides a
meaningful benchmark for decision-makers. This evaluation focuses on city-style addresses,
which comprise over 80 percent of the nation’s residential addresses.

The bureau estimated through demographic methods that as of July 1998, there were 112.5
million housing units nationwide. The addresses contained in the MAF represent the nation’s
housing units and, together with each address’s geographic location found in the Topologically
Integrated Geographic Encoding and Referencing (TIGER®) mapping system, provide an
essential tool for collecting responses and counting people where they are located. Unless
found to be nonexistent or duplicate, an address equates to a housing unit in the decennial
census. For the decennial, the bureau created the decennial MAF (DMAF), which contains all
MAF addresses meeting decennial eligibility requirements such as being a residential address
that links, or geocodes, to a unique geographic location in TIGER.

To build and maintain the address file, the bureau has implemented operations designed to
decrease undercoverage (missed housing units) and overcoverage (duplicate, nonexistent, and
other erroneous addresses). The bureau’s reengineered strategy for city-style addresses allowed
more time for local governments to review MAF address lists and submit corrections. A key
component of the reengineering was 100 percent block canvassing. Designed to verify address
data provided by local governments and the Postal Service, bureau employees were to canvass
100 percent of the blocks in an assigned area to confirm existing MAF addresses and add new
ones.

                                                i
U.S. Department of Commerce                                                   Report OSE-12065
Office of Inspector General                                                     September 2000


The bureau did not have sufficient time available to ensure high quality address data.
Reengineering of the MAF had to be completed in the two years before the addresses were
needed for labeling questionnaires and did not leave enough time to accommodate difficulties in
receiving addresses from local governments in time to be verified by block canvassing. We
found that incomplete address lists were used in block canvassing, reducing its effectiveness in
improving address quality. Moreover, the bureau did not have time to resolve questions about
the accuracy of over 5 million addresses and decided to include them and an unknown number of
duplicate addresses in the decennial until more information became available. (See page 13.)

The bureau has taken steps to improve address quality and has potentially identified 10.2
million nonexistent or duplicate addresses, approximately 4.3 million before nonresponse
followup and an additional 5.9 million during nonresponse followup, while identifying and
retaining 9.7 million vacant housing units. The official number of vacant and nonexistent
housing units will be determined after a subsequent field operation, which will provide
information to confirm vacant and nonexistent addresses, convert them to occupied, or remove
them from the census. However, the policy for determining the addresses eligible for census
operations has not been well-defined, and, at the time of our field work, the decision about
which addresses to include in the final decennial results had not been made. Rather than being
presented explicitly in the bureau’s decision memorandum series that documents decennial
policy, address eligibility rules are implicit in software specifications, which often are not
finalized until data processing for the operation is imminent or underway. Finally, the bureau
could increase use of information already on the MAF to identify missing housing units and
potential errors. (See page 18.)

MAF addresses need to be linked to unique geographic locations (geocoded) to ensure that the
bureau can count persons in their correct locations and that users of the data can accurately
redraw congressional, state, and municipal legislative district lines. Because MAF and TIGER
were developed separately and are not integrated, consistency between them cannot be easily
maintained. TIGER data can be modified without ensuring that both databases have accurate and
consistent information, causing some decennial addresses to no longer link to TIGER. In
addition, some decennial addresses received a geocode from block canvassing but do not link to
TIGER. As of April 2000, 4.5 million decennial addresses did not have a current link to TIGER.
Although these housing units will still be in the census, they risk being inaccurately located. The
bureau needs to take steps to ensure that decennial addresses are geocoded accurately. In
addition, in developing MAF and TIGER software, the bureau does not follow rigorous software
engineering practices and therefore cannot ensure that all results are accurate. Software
engineering standards should be used in the planned modernization of the systems that support
the MAF geocoding process and overall data quality. (See page 21.)

The bureau should report success in meeting housing unit accuracy and completeness goals. The
bureau has created a housing unit coverage performance standard and methods to evaluate if it is
met. The goal for Census 2000 is to miss not more than 2.5 percent of existing housing units

                                                ii
U.S. Department of Commerce                                                    Report OSE-12065
Office of Inspector General                                                      September 2000

and include not more than 1.5 percent in error, for a net undercoverage rate of 1 percent. The
Accuracy and Coverage Evaluation will measure housing unit coverage. However, the bureau
has not clearly stated how it will report the standard and its success at meeting it. The Annual
Performance Plan and Program Performance Report mandated by the Government Performance
and Results Act of 1993, in which agencies report performance goals, measures, and
accomplishments to the President and Congress, are appropriate vehicles for reporting on this
important data quality standard, including its separate overcoverage and undercoverage
components. (See page 24.)

For Census 2000, we recommend that the bureau (1) issue a decision memorandum that explains
the eligibility policy for the addresses to be included in the final decennial count, (2) ensure that
any further TIGER changes made during the decennial are verified with the MAF so that no
additional decennial addresses lose their link to TIGER, and (3) report evaluation results
measuring housing unit coverage, including its separate overcoverage and undercoverage
components. We make additional recommendations for future censuses and surveys designed to
improve the accuracy and completeness of the MAF and promote a rigorous software
engineering approach to the modernization of MAF and TIGER. Finally, we recommend that
the bureau provide housing unit coverage standards and report on its progress toward meeting
them in future Government Performance and Results Act reporting. (See page 28.)



In its response to our draft report, the bureau stated that, with one exception, it concurs with or
had already acted upon our 11 recommendations. The exception regards a portion of
Recommendation 10, implementing an annual national or small area MAF coverage
measurement—which the bureau stated would not be cost effective or practical to accomplish
annually. We believe other methods, such as comparing tallies of MAF addresses to
demographic estimates as employed by Population Division, may serve as an alternative to more
costly measurements. Although the bureau concurred with Recommendation 5, to issue a
memorandum that explains the address eligibility policy for the final delivery of addresses to be
included in Census 2000, we believe that the bureau needs to augment this “general policy”
with specific criteria for determining which addresses are eligible for the decennial. Also, in
concurring with Recommendation 6, to use information in the MAF as a management tool to
increase the completeness and accuracy of the address file, the bureau described many
innovations but omitted additional techniques we believe should be used—such as applying
address history data to locate geographic areas where addresses are likely to be missing and to
pinpoint addresses likely to be geocoded in error. Finally, the bureau provided comments on
several aspects of our observations. Based on these comments, we have clarified the appropriate
areas of the report. The bureau’s response is included in its entirety as Appendix B to this
report.




                                                 iii
U.S. Department of Commerce                                                               Report OSE-12065
Office of Inspector General                                                                 September 2000

                                                INTRODUCTION

The 2000 Decennial Census enumerates the U.S. population and housing as of April 1, 2000.
Reflecting a long tradition, Census 2000 will be the 22nd decennial enumeration in an unbroken
chain that our nation has undertaken. The decennial provides information that describes the
nation’s population within small geographic areas and is used to apportion the U.S. House of
Representatives. Decennial data is used to redraw congressional, state, and municipal legislative
district lines and provide the basis for determining the distribution of $200 billion of federal
funds. The decennial is the only data-gathering operation in the United States that is mandated
by the Constitution.

An accurate and credible decennial depends on the Census Bureau’s implementing a complex set
of data collection operations and data processing systems that must work together to meet data
quality standards. This evaluation focuses on the quality of addresses supplied to the decennial
from the Master Address File (MAF). The MAF supplies the addresses used to support the
operations responsible for mailing and hand-delivering questionnaires, enumerating
nonresponding households, and controlling the collection and tabulation of Census 2000 data.
The MAF is often referred to as the heart of Census 2000 because it is intended to supply a
complete list of living quarters used to identify all households that will be receiving a
questionnaire for mail return. Decennial addresses provided by the MAF become the contents of
the decennial master address file (DMAF). Responses received from the public are processed
and merged with the DMAF to create the file that is the basis of decennial results. Decennial
addresses must be precisely located based on geographic location information found in the
bureau’s Topologically Integrated Geographic Encoding and Referencing (TIGER®) system.1
The bureau must create a complete list of addresses that correctly identifies the block2 where the
address resides and excludes nonresidential, nonexistent, and duplicate addresses.

The quality of addresses chosen for the decennial is the cornerstone of the decennial’s accuracy
and completeness and an important determinant of its cost effectiveness. The bureau found that
in the 1990 decennial, nearly one person in every three who were missed were not counted
because their housing unit was missing from the address file.3 Also, address data in error
increases costs of operations for following up on people who did not respond to the


        1
            The remainder of this report refers to this system as TIGER.
        2
         A block is the smallest entity for which the bureau collects decennial information. A block is bounded
by physical features and county boundaries.
        3
         Report to Congress – The Plan for Census 2000, Bureau of Census, August 1997. Stated in percentages:
“Based on the1990 PES [Post-Enumeration Survey] results, 69.5 percent of the coverage error came from
enumerated housing units and the remaining 30.5 percent came from housing units that were not enumerated at
all.”

                                                           1
U.S. Department of Commerce                                                          Report OSE-12065
Office of Inspector General                                                            September 2000

questionnaire delivered to them. Also, the General Accounting Office (GAO) reported in the
1990 decennial that the bureau spent $317 million on operations to identify 4.8 million
nonexistent housing units and 8.6 million vacant housing units and to remove the former from
the address file. For this decennial, as of June 14, 2000, the bureau has identified 10.2 million
nonexistent households, while retaining 9.7 million vacant housing units. Similar to the 1990
decennial, the bureau has implemented a second followup operation to verify nonexistent and
vacant units. Costs to verify nonexistent households are not yet known.

                                       PURPOSE AND SCOPE

The overall objectives of this evaluation were to determine the extent to which the bureau had
compiled complete and correct housing unit data by the time the data was needed for addressing
census questionnaires and to determine the extent to which further corrective actions were
needed during the decennial. Our specific evaluation objectives were to (1) determine if steps
taken to improve the MAF before delivery of the address file worked as planned, (2) assess how
well the bureau identified and addressed MAF data quality problems as the decennial progressed,
(3) determine whether the software development approach ensured high quality data, and (4)
evaluate whether the data quality standard for the MAF provides a meaningful benchmark for
decision-makers.

We chose these objectives because during the 1998 Dress Rehearsal, housing unit data quality
did not meet all goals, and the bureau has undertaken several large operations to improve MAF
quality, resulting in the need to assess the success of these operations and placing new demands
on software processing. We limited our evaluation to bureau-identified households in urban
areas that receive mail at their address through the U.S. Postal Service.

To gain a high-level understanding of decennial plans and strategies, we reviewed the Report to
Congress–The Plan for Census 2000, originally issued July 1997 and revised August 1997. We
also reviewed the Census 2000 Operational Plan Using Traditional Census-Taking Methods,
dated January 1999 and subsequent updates. In addition, we reviewed concerns about the time
needed by the bureau to obtain and verify address data provided by local governments raised in
our prior report on the Local Update of Census Addresses (LUCA) Program.4

To accomplish our first objective, we reviewed the Census 2000 Address List Reengineering,
Case for Change, dated September 24, 1997, to identify the plan, schedule, and goals for MAF
accuracy and completeness. We also reviewed dress rehearsal MAF evaluation reports and
supporting documentation to obtain an understanding of issues pertaining to the quality of the


        4
        Additional Steps Needed to Improve Local Update of Census Addresses for the 2000 Decennial Census,
IPE-10756, September 1998.

                                                     2
U.S. Department of Commerce                                                                Report OSE-12065
Office of Inspector General                                                                  September 2000

MAF at the time of the dress rehearsal. To understand operations to improve the MAF, we
reviewed plans for key improvement operations and bureau documentation about these
operations. We also reviewed pertinent Commerce Inspector General and GAO reports.

To determine whether steps taken to improve the MAF before delivery of the address file
worked as planned, we reviewed the study conducted by the bureau’s Population Division,
Results from the County Level Demographic Benchmark Analysis of the Decennial Master
Address File. The purpose of this study was to examine the accuracy of the housing unit counts
based on the DMAF addresses used to deliver questionnaires when compared to the division’s
independent estimates of the numbers of housing units in each county. To learn more about
operations used to build the MAF and TIGER, we interviewed decennial officials, including the
Assistant Division Chief, Geographic Operations, and her staff and the Head of the Geographic
Planning and Budget Team. We also interviewed quality assurance and evaluation officials in
the Decennial Statistical Studies Division (DSSD), Geography Division, and Planning,
Research, and Evaluation Division (PRED). Many of those whom we interviewed were also
members of the Address List Development Operations Planning Group, which is responsible for
resolving decennial address issues as part of its overall charter to design all address list
development activities and communicate the operational requirements.

To accomplish our second objective, we evaluated the decision-making process used to identify
addresses for inclusion in the decennial. Our analysis of the bureau’s address data was initiated
by setting up several test cases as a result of identifying potential errors on TIGER map s and
analyzing corresponding addresses. For a 3.4 x 3.7-square-mile area of Prince Georges County,
Maryland, we compared the TIGER map to a commercial map, visited areas with discrepancies
between the two, and noted addresses on streets in question. We then queried the MAF to see if
these addresses were in the MAF and marked for inclusion in the decennial. We also reviewed a
small sample of addresses that were included in the decennial even though they were listed as
nonresidential. After physically verifying errors in data selected for the decennial, we traced
these errors to criteria in the specifications used for selecting data for inclusion in operations to
prepare for and start the decennial. This information makes it possible to locate potential errors
and determine whether they have broader significance.5 We then reviewed the bureau’s plans
for resolving these addresses and spoke with officials in the Geography Division and DSSD
responsible for this work.

To accomplish our third objective, we interviewed the Assistant Division Chief, Geographic
Application Systems, and members of his staff and the Assistant Division Chief, Geoprocessing
Systems, and members of his staff. We also interviewed the Branch Chief of the Geographic


        5
            This field work was confined to a small, local geographic area and was intended only to identify types
of errors that can occur, not to provide any statistical quantification of the problem.

                                                         3
U.S. Department of Commerce                                                               Report OSE-12065
Office of Inspector General                                                                 September 2000

Products Quality Assurance Team and other quality assurance staff. We reviewed software
specifications and quality assurance practices followed in implementing the software that
processes and produces address data for decennial operations, including operations to improve
the MAF. We interviewed officials responsible for improving and maintaining the housing unit
address data and for providing extracts of this data to support the decennial and other bureau
programs, such as the American Community Survey.6 In the Decennial Systems and Contracts
Management Office (DSCMO), we interviewed the program manager responsible for processing
the data provided from the MAF for decennial operations and the data obtained from those
operations.

To accomplish our fourth objective, we learned about the bureau’s efforts to gather, measure,
and improve its housing unit data by reviewing memorandums and reports from the 1990
decennial and tests, operations, and studies designed to provide the bureau with information
needed to prepare for Census 2000. This documentation included 1998 Dress Rehearsal
evaluations of the MAF and reports from the DSSD MAF Quality Improvement Program. We
also interviewed bureau officials from the Decennial Management Division, DSSD, and PRED
regarding the status of the data quality standard for the MAF and the policy for reporting on
progress toward achieving it. We also reviewed the Government Performance and Results Act
of 1993 to determine the requirements for reporting performance.

This inspection has been conducted in accordance with the Inspector General Act of 1978, as
amended, and the Quality Standards for Inspections, March 1993, issued by the President’s
Council on Integrity and Efficiency. Our field work was conducted from August 1999 through
June 2000 at the bureau’s headquarters in Suitland and Upper Marlboro, Maryland, and selected
areas in Prince Georges County.


                                              BACKGROUND

In conducting the decennial, the bureau attempts to deliver a questionnaire to every household in
the country. To accomplish this task, the bureau needs to know the address for each housing
unit. The MAF and TIGER are two databases that together contain the nation’s addresses and
their geographic locations. The MAF database contains both residential and nonresidential (for
example, business and religious organizations) addresses. To be valid for the decennial, an
address must be for a housing unit where people reside—and, therefore, is typically residential.



        6
          The American Community Survey is designed to provide the data communities need every year instead
of every 10 years. It is an ongoing survey that the bureau plans will replace the long form in the 2010 Census. See
the survey web site at http://www.census.gov/acs/www/ for more information.

                                                        4
U.S. Department of Commerce                                                   Report OSE-12065
Office of Inspector General                                                     September 2000

The bureau estimated, as of July 1998, that there were 112.5 million residential housing units
through use of independent demographic analysis. A year later, approximately 120 million
residential addresses in the MAF were identified for use in the decennial. The number of MAF
residential addresses was higher than the 1998 estimates, in part, because the MAF contained
duplicate and nonexistent addresses. Residential addresses are divided into two basic address
styles, city-style and non-city-style. A city-style address consists of a house number and street
name—101 Main Street, for example, with optional apartment number and direction such as
“North.” A non-city-style address may have a delivery route number or box number.
Residential addresses comprise approximately 80 percent city-style addresses and 20 percent
non-city-style addresses.

In areas where city-style addresses predominate, the TIGER database contains streets with
associated address ranges; in areas where non-city-style addresses predominate, TIGER contains
roads and map spots to indicate the location of housing units. In TIGER, the entire country is
divided into discrete geographic areas called blocks. Each of the country’s 3,142 counties has
its own set of uniquely numbered blocks. To be valid for the decennial, a MAF address must be
linked to exactly one block in TIGER. The process of linking or assigning addresses to blocks
is called geocoding.

A third database, the Decennial Master Address File, incorporates address data from the MAF
with control data for tracking questionnaire responses submitted by the public. DMAF data
links the public’s responses to each housing unit to calculate housing unit participation in the
decennial. If an address is not in the DMAF at the start of the decennial, it must be added during
decennial operations to be included in the decennial results. These new addresses will also have
to be added to the MAF and geocoded. Similarly, decennial operations identify addresses that
should not be in the decennial either because they are duplicates, because no such housing unit
exists, or for other reasons. Such addresses are not physically deleted from the MAF or DMAF
but are flagged so that they are not included in further decennial operations or in the decennial
results. The DMAF is also used to provide address lists for operations such as Nonresponse
Followup (NRFU) in which enumerators attempt to find nonrespondents and Coverage
Improvement Followup (CIFU), in which enumerators, among other things, attempt to find and
enumerate households not included in NRFU.

MAF, TIGER, and DMAF are separate databases that contain address data. They are each
updated as new address data is provided through decennial operations. Because data from all
three is used to implement and manage decennial operations, consistency between them is
essential to producing accurate results for Census 2000.

A critical milestone for use of housing unit data in the decennial occurred in July and August
1999, when the initial DMAF was created with address data extracted from the MAF. The July

                                                5
U.S. Department of Commerce                                                  Report OSE-12065
Office of Inspector General                                                    September 2000

1999 and supplemental August 1999 MAF extract for the DMAF provided the initial universe of
housing units for the decennial. This address data was used to label questionnaires for eventual
mail and hand delivery to the nation’s housing units in time for Census Day— April 1, 2000.

Strategies to Build the MAF

In 1992, the Congress mandated a study of the fundamental requirements for the nation’s
decennial census by the National Academy of Sciences’ National Research Council. The
council recommended that the bureau develop cooperative arrangements with local/tribal
governments to improve its address data. Section 9 of Title 13 authorizes the bureau to protect
the confidentiality of the persons from whom it collects data, and in general prohibits the
sharing of any individual’s data collected by the bureau. To allow the bureau to implement the
Council’s recommendation, the Congress passed the Census Address List Improvement Act of
1994, which amended Title 13 to require the bureau to solicit address list feedback from
local/tribal governments. This act also mandated that the bureau use the U.S. Postal Service’s
Delivery Sequence File, a nationwide list of individual mail delivery points.

       The Initial Plan

In September 1997, the bureau began to build the MAF for the entire nation by combining the
1990 decennial address list with the Postal Service file for counties with city-style addresses.
After merging the two files, all addresses were submitted to automated processing that geocoded
them to TIGER. Some addresses could not be geocoded by automated means because TIGER
data did not include the house number within the address range for that street or the street was
missing. These addresses were sent to an operation called the MAF Geocoding Office
Resolution, which researched the correct information for the locale and updated TIGER so the
address could be geocoded. To incorporate address changes or additions reflected by the Postal
Service data, the bureau has updated the MAF periodically with later versions of the Postal
Service file. The geocoding process occurs as part of each such update.

To obtain local and tribal government input, the bureau created the Program for Address List
Supplementation. Through this program, the bureau invited local governments to submit lists of
city-style addresses to obtain any that still might be missing or listed incorrectly. The bureau
planned field operations to verify discrepancies between existing MAF data and that provided
by the program. The bureau also planned targeted canvassing to identify housing units whose
addresses were missing from the MAF. Finally, a Local Update of Census Addresses (LUCA)
program to be started about a year before creating the initial DMAF would provide an
opportunity for participating local/tribal governments to review the address lists and provide
updates and corrections.


                                                6
U.S. Department of Commerce                                                            Report OSE-12065
Office of Inspector General                                                              September 2000

       The Reengineered Plan

Even before the merging operation that created the initial MAF, the bureau realized that its
current plan would result in an address list with rates of overcoverage (erroneous addresses) and
undercoverage (missed housing units) that would burden decennial operations. The bureau
formed a team with members from various divisions to develop an approach to achieving the
most accurate list possible, using local and tribal government involvement. Time to implement
the plan was short—within a little over two years, the bureau had to supply addresses to the
printers to label questionnaires. The bureau documented its new plan in September 1997.7

For city-style addresses, the new approach allowed more time for local governments to review
MAF address lists and submit additions, deletions, or other corrections in a program now called
LUCA 98. This new program would assist governments that do not maintain address data as
mailing lists. To verify address data provided by local governments and account for
deficiencies in the Postal Service file, the bureau changed its plan from targeted canvassing to
100 percent block canvassing by bureau employees, an operation considered critical to
achieving a database with uniformly high quality. For the block canvassing operation, listers
were to canvass 100 percent of their assigned area and conduct brief interviews at approximately
every third housing unit, every multi-unit structure, and all added housing units.8 Block
canvassing was called a “dependent listing” because listers used lists of addresses that the
bureau generated from the MAF for their specific assignment area. The listers were to compare
each address with those on the list, mark correct ones as verified, and record all additions,
deletions, and corrections. In addition, the listers were to update TIGER maps. The bureau
believed that block canvassing was the only method that could identify and correct all types of
accuracy problems. A separate reconciliation operation was planned for LUCA 98 results that
differed from bureau results.

To ensure the completeness of city-style addresses, the bureau also planned a Postal Service
validation, which would consist of the postal carriers placing pre-addressed cards in their mail
sorting cases to identify either undeliverable or missing addresses. The bureau believed that the
Postal Service validation would update the MAF with new residential construction occurring in
1999 and early 2000 that was missed by other operations. The check was to be conducted as
close to Census Day as possible.




       7
           Census 2000 Address List Reengineering, Case for Change, September 24, 1997 .
       8
           Census 2000 Block Canvassing Program Master Plan, Bureau of Census, March 1999.

                                                       7
U.S. Department of Commerce                                                                Report OSE-12065
Office of Inspector General                                                                  September 2000

        Changes to the Reengineered Plan

The bureau subsequently modified some aspects of the reengineered plan. It replaced the Postal
Service validation with a letter carrier review and correction of addresses in the summer of 1999
and again in January 2000.9 The bureau made this decision after months of evaluation and
discussions with the Postal Service. The new plan allowed earlier incorporation of new
addresses and reflected actions taken by the Postal Service to increase the currency and accuracy
of the Postal Service file. The bureau also added a program to allow local/tribal governments to
identify newly constructed housing units starting in January 2000. This program responded to
concerns raised by local/tribal governments that housing units constructed between January 2000
and Census Day would not be included the decennial.

Bureau Tests and Evaluations Support the Decision to Revise the MAF-building Approach

Bureau evaluations and tests conducted before and after the decision to alter the strategy
supported the need to improve MAF accuracy and completeness. The reengineering plan cited
data quality goals for the MAF that called for overcoverage of 1.5 percent and undercoverage of
2.5 percent, for a net undercoverage of 1 percent.10 However, according to this plan, the bureau’s
experience with using the combined Postal Service file and 1990 address list during the 1995
Census Test revealed that the bureau was not meeting its goals. According to the reengineering
plan, the 1995 test of two cities showed undercoverage ranging from 3.9 to 6.7 percent and
overcoverage ranging from 6.0 to 9.0 percent. Further, the data indicated that coverage problems
were worse in multi-unit structures, where undercoverage ranged from 4.0 to 7.9 percent and
overcoverage ranged from 5.7 to 9.4 percent, depending on the size of the structure.

Two other evaluations conducted by PRED and DSSD during 1997 and 1998 also found
coverage problems.11 The 1997 MAF Quality Improvement Program Pilot Study, which


        9
            In addition, the bureau used updated Postal Service data to update the MAF in February 2000.
        10
            The reengineering plan cited no more than 1 percent duplicates as part of the overcoverage measurement
goal. We estimated the total overcoverage measurement goal, including duplicates and other nonexistent housing
units, as 1.5 percent based on the bureau’s goal for missing housing units of 2.5 percent and net housing unit
undercoverage measurement of 1 percent.
        11
          1997 Master Address File Quality Improvement Program Pilot Study, Bureau of the Census, PRED,
April 1999 and 1998 Master Address File Quality Improvement Program, Bureau of the Census, PRED, June
1999. The purpose of the 1997 pilot study was to test the operational feasibility of using the Integrated Coverage
Measurement (ICM) methodology to measure the accuracy and completeness of the initial MAF. The pilot
concluded that with a few modifications, the ICM operational methodology worked for the 1997 Quality
Improvement Program.

                                                         8
U.S. Department of Commerce                                                               Report OSE-12065
Office of Inspector General                                                                 September 2000

evaluated six counties with high rates of geocoded addresses, found undercoverage rates ranging
from 5.1 percent to 26.9 percent and overcoverage rates ranging from 6.7 percent to 18.2
percent.12

The 1998 MAF Quality Improvement Program Study also found large error rates and concluded
that they confirmed the need for significant improvement in MAF-building operations before the
decennial. 13 The 1998 study included estimates of geocoding errors to account for housing units
missing from a block because they were assigned to the wrong block. At the national level, the
study found a 9-percent undercoverage rate and a 13-percent overcoverage rate. The study also
found that 6 percent of addresses were geocoded to the wrong block, and 6 percent of existing
housing units with addresses in the MAF were not geocoded. At a regional level, undercoverage
ranged from 5 to 16 percent and overcoverage ranged from 8.5 to 16 percent. From 2.5 to 11
percent of addresses were geocoded to the wrong block, and from 2 to 12 percent of existing
housing units with addresses in the MAF were not geocoded. In the six counties that were
evaluated, undercoverage estimates range from 3 to 7 percent and overcoverage estimates range
from 7 to 36 percent. From 2 to 7.5 percent of addresses were geocoded to the wrong block, and
from 0.1 to 1.5 percent of existing housing units with addresses in the MAF were not geocoded.

The bureau also evaluated MAF housing unit undercoverage and overcoverage experienced
during the 1998 Dress Rehearsal. 14 Undercoverage estimates at the dress rehearsal sites ranged
from 2.9 to 24.6 percent, and overcoverage estimates ranged from 2.9 to 14.8 percent.

Another type of dress rehearsal evaluation of the DMAF was done by the Population Division to
examine the consistency of housing totals. This evaluation compared the numbers of addresses
in the DMAF for a specific county to an independent demographic benchmark calculated by
using the results of the 1990 decennial, then adding the number of new housing units and
subtracting the number demolished. DMAF tallies differed widely from demographic
benchmarks in South Carolina where the DMAF did not retain housing units with mailing
addresses that were post office boxes and did not adequately obtain address data for newly
constructed housing units. In areas not experiencing these problems, DMAF address totals were



        12
           Because this study only used residential geocoded addresses, it did not measure the extent to which
coverage errors were caused by coding errors. These types of errors include (1) geocoding errors, an address coded
to the wrong block, which erroneously decreases housing units on one block while increasing them on others; (2)
ungeocodables, addresses on the MAF but not geocoded; and (3) nonresidential coding errors, addresses that are
incorrectly coded nonresidential. This study also did not specifically look at coverage in multi-unit structures.
        13
             1998 Master Address File Quality Improvement Program
        14
         Results of the Housing Unit Matching Phase of the Integrated Coverage Measurement, Bureau of
Census, DSSD ICM Dress Rehearsal Results Memorandum Series Number HU-1, September, 1998.

                                                        9
U.S. Department of Commerce                                                         Report OSE-12065
Office of Inspector General                                                           September 2000

broadly consistent with the independent demographic benchmarks. These results indicate that
benchmarks provide a useful tool for evaluating the MAF and DMAF.15

Decennial Operations Rely on and Improve the MAF, DMAF, and TIGER

During the decennial, response collection operations use address data and can add to the
accuracy and completeness of the MAF, TIGER, and the DMAF. In Nonresponse Followup—a
decennial operation that occurs after the initial period when responses are returned from the
public—temporary field staff, called enumerators, visit housing units with addresses for which
the bureau has not recorded a response. The bureau provides enumerators with lists of
information from the DMAF for both respondents and nonrespondents. Enumerators use the
lists to find nonrespondents and to help them identify whether respondents may have completed
a form for the wrong address and if so, to locate the true nonrespondents. Enumerators then
attempt to interview a household member to obtain resident and housing unit information.

The Geography Division is responsible for the data processing that identifies the addresses
eligible for NRFU, and DSCMO is responsible for the data processing that generates the NRFU
universe of nonrespondents and the address lists containing the data to produce enumerator
work lists. This processing occurred during March and April 2000. In addition to finding
nonrespondents, enumerators also identify vacant housing units as vacant and nonexistent
addresses as deletes. To the extent that nonexistent addresses are identified and flagged on the
MAF and the DMAF, overcoverage is decreased.

Although enumerators focus on obtaining missing responses rather than looking for missing
units, when they do discover the latter, they record pertinent data in the address register and
attempt to complete a questionnaire for the household. If the address recorded on the completed
questionnaire can be geocoded and is not already in the MAF, it is added. To the extent that
NRFU adds valid addresses to the MAF, undercoverage is decreased.

During Coverage Improvement Followup—an operation that followed NRFU—the bureau
enumerates new housing units found during update/leave, housing units associated with lost or
blank questionnaires, partially completed Be Counted and Telephone Questionnaire Assistance
questionnaires, and new addresses or incomplete responses that were obtained too late to be in
NRFU.16 CIFU also verifies some housing units classified as vacant or nonexistent in earlier
decennial operations. Similar to NRFU, Geography identified addresses eligible for CIFU, and
DSCMO produced the CIFU universe. This processing occurred during June 2000. Similar to


       15
            Census 2000 Dress Rehearsal Evaluation Summary, Bureau of Census, PRED, August 1999.
       16
            Coverage Improvement Followup Program Master Plan, Bureau of Census, October 1999.

                                                    10
U.S. Department of Commerce                                                 Report OSE-12065
Office of Inspector General                                                   September 2000

NRFU, enumerators identify vacant housing units as vacant and nonexistent housing units as
deletes. To the extent that nonexistent addresses are identified and flagged on the MAF and the
DMAF, overcoverage is decreased. If a missing housing unit is found, the enumerator will add
the address and attempt to enumerate the household. To the extent that CIFU adds valid
addresses to the MAF, undercoverage is decreased.

Two operations, the Be Counted Program and Telephone Questionnaire Assistance, although
not designed specifically to identify housing units, can result in new addresses. If a housing
unit or households within a housing unit have not received a questionnaire from the bureau,
they can obtain an unaddressed Be Counted questionnaire. Similarly, a household can call a
toll-free number to submit a response regardless of whether they received a questionnaire in the
mail. In both programs, if the address provided with the response can be geocoded and is not
already in the MAF, it will be added. Although the intent of these operations is to count people
within housing units who are not included in the return for that unit, to the extent that valid
addresses are added to the MAF, housing unit undercoverage is decreased.

Computer Systems Process Information for Decennial Operations

The bureau has developed software to extract information from MAF and TIGER to update the
DMAF and to process data obtained from decennial operations to update MAF and TIGER for
further decennial operations. Software was used to merge the Postal Service file with the 1990
decennial address list to produce the initial MAF; reconcile TIGER with the MAF; produce
address lists for LUCA 98, block canvassing, and LUCA 98 Field Verification; merge data
collected from LUCA 98, block canvassing, and Postal Service file updates with MAF and
TIGER; and produce MAF extracts for creating and updating the DMAF. MAF extracts are
planned for many DMAF updates during the decennial. Final housing unit selection from the
MAF is delivered to headquarters processing for merging with the response data. The results of
that processing are submitted for the selection of housing units to be included in decennial
results. Figure 1 diagrams these components. Critical system subcomponents include the
matching and merging software and the geocoding software. The matching and merging
software updates existing address records or adds new address records with data obtained from
decennial operations. The geocoding software links an address in the MAF with a unique block
(geographic location) in TIGER.




                                               11
U.S. Department of Commerce                      Report OSE-12065
Office of Inspector General                        September 2000


Figure 1. System Components for MAF and TIGER®




                                     12
U.S. Department of Commerce                                                 Report OSE-12065
Office of Inspector General                                                   September 2000



                          OBSERVATIONS AND CONCLUSIONS

I. Sufficient Time Not Available to Ensure High Quality Address Data

Although the bureau made a strong case for reengineering its approach to building the MAF and
spent close to $100 million for the necessary operations, making that decision just two years
before the addresses were needed did not leave enough time to carry out the new plan. A bureau
study of address quality in the initial DMAF raised concerns about high levels of housing unit
overcoverage and undercoverage but was not designed to report on the cause. We found that
LUCA 98 schedule slips and bureau policy regarding which addresses were eligible to be
included in block canvassing reduced the effectiveness of this major operation designed to
improve address quality. In addition, the bureau did not have sufficient time to resolve
conflicting LUCA 98 and block canvassing addresses before including these and other unresolved
addresses on the initial DMAF for questionnaire addressing. Housing unit overcoverage, caused
by including over 5 million unresolved addresses on the DMAF, increased the burden on
decennial operations to resolve nonexistent and duplicate addresses.

The bureau created the MAF by updating the 1990 address file with Postal Service and local/tribal
address information and plans to update and use the MAF resulting from the 2000 decennial as
the basis for future surveys and censuses, including the 2010 decennial. Using its experiences
from the 2000 decennial as a guide, the bureau needs to develop an improved approach for
updating the MAF that includes sufficient time to conduct MAF-building operations designed to
detect and resolve overcoverage and undercoverage and that incorporates a clear definition of
addresses eligible for these operations.

A.     High Levels of Data Quality Not Achieved for Initial DMAF

The Population Division compared its 1998 estimates of housing unit coverage to numbers of
addresses in the initial DMAF to find potential undercoverage and overcoverage problems. That
comparison showed that a year after it had estimated a total of 112.5 million housing units
nationwide, the initial DMAF contained 120.2 million units—a difference of 7.7 million or 7
percent. Knowing that the national average can vary considerably at a county level and wanting
to provide a tool for flagging counties with potential overcoverage and undercoverage, analysts
compared the benchmarks with the total contained in the initial DMAF for each county. The




                                               13
U.S. Department of Commerce                                                                   Report OSE-12065
Office of Inspector General                                                                     September 2000

methodology separated counties by type of enumeration area17 and tallied the number of
addresses for each county. The analysis found that of 148 counties with only city-style
addresses, 57 percent had measurable overcoverage or undercoverage.18 Similarly, of 1,499
counties with a combination of city-style and non-city style addresses, 67 percent had
measurable overcoverage or undercoverage.19 As noted previously, housing unit coverage will
improve during the decennial—bureau operations will add housing units and eliminate
nonexistent and duplicate housing units. In addition, housing unit estimates may not adequately
reflect fluctuations in population for some counties. However, such a high percentage of
counties with coverage discrepancies indicates significant data quality problems at the start of the
decennial.

For the purpose of the Population Division’s analysis, counties were considered to have
undercoverage if the DMAF count was below the 1998 estimate. In these counties, the housing
unit count is expected to fall even more after the normal process of removing duplicate and
nonexistent addresses. Unless update operations add housing units to make up the difference,
there will be a shortfall. The study identifies counties where the DMAF is 0 to 5 percent higher
than the 1998 estimate as also having the potential to fall below the 1998 estimate after duplicate
and nonexistent housing units are removed during the decennial.

For the same analysis, counties were considered to have overcoverage if the DMAF count was
above the 1998 estimate by 20 percent. In these counties, the bureau expects a larger than normal


         17
          Types of Enumeration Areas (TEAs) include TEA 1- block canvassing and Mailout/Mailback; TEA 2 -
Address Listing and Update/Leave; TEA 3 - List/Enumerate; TEA 4 - Remote Alaska; TEA 5 - “Rural” Update/
Enumerate; TEA 6 - Military; TEA 7 - “Urban” Update/Leave; TEA 8 - “Urban” Update/Enumerate; and TEA 9 -
Additions to Address Listing Universe of Blocks. For further discussion of operations for each TEA, see Census
2000 Operational Plan Using Traditional Census-taking Methods, Bureau of the Census, January 1999.
         18
            Nationwide, there are 3,142 counties. In addition to the 148 city-style and 1499 city-style and non-city-
style counties cited above, the study included 818 counties that had all non-city-style addresses and 460 counties that
had a combination of city-style, non-city-style, and other TEAs. The report also did not cover another 217 counties,
primarily because these counties’ addresses were obtained through other than MAF-generated activities. We included
the bureau’s analysis of counties with only TEA 1 and combination of TEAs 1and 2. We did not include the
results for TEA 1 in combination with other TEAs. For example, the results from Cook County, Illinois and
Philadelphia County, Pennsylvania were not included because these counties are a combination of TEAs 1 and 7.
         19
           The study results are documented in Count Review Memorandum Series 99-01, Subject: Results from
the County Level Demographic Benchmark Analysis of the Decennial Master Address File–Part A: Differences 5
Percent or below for Selected Types of Enumeration Areas, January 10, 2000, and Count Review Memorandum
Series 99-02, Subject: Results from the County Level Demographic Benchmark Analysis of the Decennial Master
Address File–Part B: Differences in Excess of 10 Percent for Selected Types of Enumeration Areas, February 10,
2000, issued by the bureau’s Population Analysis and Evaluation Staff, Population Division.

                                                          14
U.S. Department of Commerce                                                             Report OSE-12065
Office of Inspector General                                                               September 2000

number of deleted addresses resulting from removing duplicate and nonexistent addresses. The
study also identifies counties where the DMAF is 10 to 20 percent higher that the 1998 estimate
as counties with a similar potential for a higher number of deleted addresses resulting from
removing duplicate and nonexistent housing units. Table 1 shows the results of the analysis,
including the total number of counties in each category and overcoverage and undercoverage
combined.

Table 1: Demographic Evaluation of Initial DMAF Undercoverage and Overcoverage by
Counties Having City-Style and Combination City-Style and Non-City-Style Addresses

                                  Counties with                  Counties with
                                  Overcoverage                  Undercoverage                Total
     Type of Address
                                                                                         Undercoverage
     and Number of             Exceeds                                      Exceeds
                                             Exceeds                                         and
        Counties               1998 by                       Under 1998       1998
                               20% or
                                            1998 by 10
                                                              Estimate    estimate by    Overcoverage
                                              to 20%
                                higher                                        0-5%


 City-Style—148 counties       10 (7%)       27 (18%)          6 (4%)      41(28%)           84 (57%)


 City-Style and Non-City-
                                37 (3%)       264 (18%)      163 (11%)    543 (36%)        1007 (67%)*
 Style—1,499 counties
*Percentage total difference due to rounding.

The results for the counties cited above raise questions about the success of reengineering in
meeting overcoverage and undercoverage goals. Reengineering in some counties appears to
have resulted in undercoverage rates comparable to those experienced at the time of the dress
rehearsal. Given that the 100 percent block canvassing component of the reengineering was
intended to improve the MAF beyond levels experienced during the dress rehearsal, we are
recommending that the bureau explore what caused overcoverage and undercoverage and use
the results as lessons learned when planning future MAF improvement operations.

B.      LUCA 98 Schedule Slips and Bureau Policy Reduced the Effectiveness of
        Block Canvassing

The bureau designed block canvassing so that it would include all LUCA 98 addresses and verify
both LUCA 98 and Postal Service address data. Prior bureau evaluations indicate that erroneous
addresses are more likely to be corrected by field operations if they are included on the address




                                                        15
U.S. Department of Commerce                                                            Report OSE-12065
Office of Inspector General                                                              September 2000

lists used during the operation.20 However, not all LUCA 98 or MAF addresses were included in
block canvassing. Thus, block canvassing enumerators did not have complete housing unit
address lists, making it difficult to find missing addresses and areas not covered effectively by the
Postal Service. As bureau officials have explained to us, although block canvassing is designed
to be a 100-percent verification of assigned areas, listers often rely too heavily on address lists
and associated TIGER maps and do not find areas where addresses are not listed or where streets
are missing on the map s. Not including all MAF addresses in block canvassing resulted in
unverified addresses being included on the initial DMAF.

We found that block canvassing lists were incomplete for two reasons: (1) the LUCA 98
operation took longer than the bureau estimated, resulting in approximately 98.6 percent of
LUCA 98 addresses that were not available in time to be included in block canvassing, and (2)
block canvassing address lists did not include some MAF addresses from the Postal Service file,
as well as other addresses that were not geocoded.21 Specifically, MAF addresses added by the
November 1997 Postal Service file but not included on the September 1998 Postal Service file
were omitted from block canvassing address lists. Bureau officials told us that there was not a
clear policy on which addresses should be included for block canvassing, and at that time, a
decision was made not to use these addresses, which the Postal Service no longer considered
valid. However, this decision was not consistent with the later decision to include these same
addresses in the initial DMAF. Addresses with missing geocodes were not included on block
canvassing lists because bureau officials believed that addresses without block numbers would be
difficult to find. However, since other identifying information—such as the street address, city,
state, and zip code—was available, we believe that these addresses could also have been verified.

We are recommending that in establishing its strategy for updating the MAF for future surveys
and censuses, the bureau ensure that sufficient time is planned for MAF improvement operations.
We are further recommending that this strategy include developing a consistent policy for
address eligibility for these improvement operations and an approach for verifying addresses
without block codes.




        20
          As cited in Additional Steps Needed to Improve Local Update of Census Addresses for the 2000
Decennial Census, IPE-10756, September 1998.
        21
          2000 Census, Local Address Review Program Has Had Mixed Results to Date, GAO Testimony,
Statement of J. Christopher Mihm, Associate Director, Federal Management and Workforce Issues, General
Government Division, GAO/T-GGD-99-184, September 29, 1999 and Census Bureau Geography Division data
spreadsheet.

                                                     16
U.S. Department of Commerce                                                                Report OSE-12065
Office of Inspector General                                                                  September 2000

C.      Insufficient Time Also Contributed to Erroneous Addresses on the Initial DMAF

In order to minimize the chances of omitting valid addresses from the decennial, the bureau
included addresses that MAF operations had indicated were in error or that had conflicting
indications from different operations on the initial DMAF. This inclusive approach allowed 5.2
million unresolved addresses to be delivered in July 1999 to the printing operation that labeled
questionnaires for mail delivery. Unresolved addresses were those that block canvassing
recommended be deleted because they were nonexistent, uninhabitable, or nonresidential or that
had been added by LUCA 98 but not by block canvassing . The bureau decided that unresolved
addresses would be reviewed under a LUCA 98 Field Verification operation.22 However, this
operation was not completed until several months after the address file was delivered to the
printer. We believe that this approach contributed to the high amount of overcoverage reported
in the Population Division study discussed in the first part of this observation.

The bureau’s inclusive approach also resulted in including an unknown number of duplicate
addresses in the decennial. We found two reasons why duplicates occurred. First, some
addresses identified as duplicates by block canvassing were included because the results
conflicted with LUCA 98. Second, a decision to alter software processing so that address
updates of individual apartments, trailer park lots, and certain other housing unit types would
not be incorrectly merged into a single address allowed duplicates of other addresses to occur.23

The high level of undercoverage and overcoverage that occurred due to the lack of time to verify
addresses underscores the need for the bureau to ensure that sufficient time is allotted for MAF
improvement operations in the future. As the bureau continues to update the MAF with Postal
Service or local/tribal address information, preventing duplicate addresses will remain a
challenge. Therefore, we are recommending that the bureau study the causes of duplicate
addresses and implement methods to prevent them.




        22
            LUCA 98 addresses that were not accepted by the bureau during block canvassing were to be rechecked
during a subsequent inspection operation called reconciliation, where bureau employees were to verify the block
canvass results between March and August 1999. However, the delays in LUCA 98 created the complication of some
LUCA 98 addresses not included in block canvassing having to be matched to block canvassing results to determine
their status. This process and other delays resulted in the delay of the reconciliation to verify LUCA 98 addresses.
        23
           Block Canvassing Address Merge Rules, Memorandum from Robert Marx, Chief, Geography Division
to Distribution List, June 25, 1999.

                                                        17
U.S. Department of Commerce                                                            Report OSE-12065
Office of Inspector General                                                              September 2000

II.    The Bureau Has Taken Steps to Improve Address Data Quality,
       but More Should Be Done

The bureau took steps to identify erroneous addresses before starting NRFU. However, similar
to the bureau’s lack of a clear policy on address eligibility for MAF-building operations, its
policy for defining address eligibility during the decennial is also not well-defined. In
particular, the specification that determines which housing units will be included in the final
decennial count has not been issued. The bureau could also make better use of information
already on the MAF to identify missing housing units and potential geocoding errors where a
MAF address does not link to the correct TIGER location. To improve address data quality for
Census 2000 and future censuses and surveys, the bureau should (1) define a clear and visible
policy for determining address eligibility during the decennial and (2) devise methods of using
MAF address history information to guide coverage improvement operations.

A.     The Bureau Identified Some Erroneous Addresses and
       Flagged Them As Ineligible for Nonresponse Followup

In our review of a sample of addresses in Prince Georges County, Maryland, we found evidence
of systemic overcoverage that we believe need to be quantified and targeted by the bureau. The
overcoverage included both duplicate addresses and addresses for nonexistent or uninhabitable
housing units.

For example, we found a street with 28 townhouses, of which 26 had their addresses listed twice
in the MAF. Initially, addresses for the 28 townhouses were added to the MAF with errors
caused by a slightly incorrect spelling obtained from the Postal Service file and an incorrect
block number caused by an error in TIGER. LUCA 98 added correct addresses and block
numbers for 26 of these townhouses. All 54 addresses were included in the initial DMAF.
However, as we pointed out earlier, the bureau’s software had been modified to merge fewer
duplicates and thus allowed more of these duplicate addresses in the initial DMAF.

As we also pointed out earlier, another reason for overcoverage was the lack of a clear policy on
which addresses should be included for block canvassing. For example, we found an apartment
complex of some 500 uninhabitable units whose MAF addresses were excluded from block
canvassing lists but included in the initial DMAF. The September 1998 Postal Service file did
not contain these addresses, disqualifying them from block canvassing.24 However, the




       24
            Master Address File Extract for Block Canvassing, Bureau of Census memorandum, October 7, 1998.

                                                      18
U.S. Department of Commerce                                                             Report OSE-12065
Office of Inspector General                                                               September 2000

November 1997 Postal Service file had designated these units as residential, qualifying them for
the initial DMAF.25

The bureau agrees with our assessment that known duplicate addresses and addresses not
verified by block canvassing and added solely on the basis of the November 1997 Postal
Service file are likely to be erroneous. The bureau has acted to remove these addresses which
include 0.5 million duplicate addresses, 0.9 million obsolete postal service addresses, 1.5
million addresses known as LUCA 98 provisional adds (out of 2.6 million), as well as 1.4
million addresses recommended for deletion by block canvassing.26 We believe the bureau
made the right decision in taking steps to not include these addresses in nonresponse followup,
which saved the cost of enumerator visits and enhanced the enumerators’ ability to obtain actual
responses. Followup operations are finding additional nonexistent addresses. For example, as
of June 14, 2000, the bureau has reported that its nonresponse followup operation found 5.9
million nonexistent addresses. The final number of nonexistent housing units will be
determined after completion of coverage improvement followup.

B.      The Bureau’s Policy for Determining Address Eligibility
        During the Census Is Not Well-Defined

Although the bureau has identified almost 20 million nonexistent and vacant addresses, 15.6
million in nonresponse followup plus the 4.3 million addresses before nonresponse followup,
the decision about the criteria for which addresses to include in the final decennial count has not
been made. The bureau does not have a written policy for determining address eligibility.
Bureau officials cite a “double-strike” or “double-kill” policy, whereby addresses have to be
deleted by two operations to be ineligible for remaining decennial operations. However, this
policy has not been documented in the decision memorandum series that establishes and
communicates bureau policy for the decennial. Instead, the policy is embedded in DMAF
deliverability criteria found in software specifications, which often are not finalized until data
processing for the operation is imminent or underway. We found that the actual policy implicit
in DMAF specifications includes more than the double-strike rule described by decennial
managers. For example, one set of DMAF specifications included criteria for deleting addresses
not found on Postal Service files delivered after September 1998 that are not part of the double-




        25
         Specification of the Decennial Master Address File Deliverability Criteria for Census 2000, DSSD
Census 2000 Procedures and Operations Memorandum Series #D-1, Bureau of Census, June 30, 1999.
        26
          Some overlap between the duplicates and the block canvass deletes and between the obsolete addresses
and the LUCA provisional adds is possible.

                                                      19
U.S. Department of Commerce                                                           Report OSE-12065
Office of Inspector General                                                             September 2000

strike policy.27 In another set of DMAF specifications, addresses said to be seasonal or
recreational only needed one strike to be ineligible for CIFU operations. In another case in this
same specification, an address designated by block canvassing as nonresidential and as a delete
by NRFU would still be included in CIFU because the block canvassing delete no longer
qualified as a strike.28 Finally, we observed address eligibility decisions being made up to the
deadline for delivering NRFU-eligible addresses, and the bureau has yet to complete the DMAF
specification for addresses eligible for inclusion in the final decennial results.

For future censuses and surveys, including the 2010 decennial, we are recommending that the
bureau develop an address eligibility policy in advance that defines and explains the rationale to
be used in selecting addresses. For the current decennial, we are recommending that the bureau
issue a decision memorandum that explains the address eligibility policy for the final list of
addresses to be included in the decennial.

C.      The Bureau Should Use the MAF as a Management Tool

Data on the MAF provides valuable information for increasing the accuracy and completeness
of addresses. For example, we found a street with approximately 140 townhouses built since
1990 whose addresses were added by the Postal Service file, verified by LUCA 98, but not
indicated on the MAF as verified by block canvassing. Especially where no LUCA 98
participation occurred, areas not block canvassed may have missing or inaccurate addresses.
The bureau should identify areas with high percentages of addresses with no block canvassing
action codes for future verification. As of April 2000, there were 9.5 million of these addresses
in the DMAF. Possible reasons for their inclusion are that some were located by other
operations or the housing units were built recently. However, areas with a preponderance of no
block canvassing action codes also could have missing housing units.




        27
           Definition of the Nonresponse Followup Universe for Census 2000, DSSD Census 2000 Procedures and
Operations Memorandum Series #BB-3, Bureau of Census, November 1, 1999; Specification for Identifying the
Nonresponse Followup Universe for Census 2000, DSSD Census 2000 Procedures and Operations Memorandum
#BB-4R, Bureau of Census, February 2, 2000; and Specifications for Updating the Decennial Master Address File
in April 2000, DSSD Census 2000 Procedures and Operations Memorandum #D-6, Bureau of Census, March 27,
2000.
        28
           Definition of the Coverage Improvement Followup Universe for Census 2000, DSSD Census 2000
Procedures and Operations Memorandum Series #CC-2 Revision #4, Bureau of Census, June 28, 2000; Revision
Specification of the Coverage Improvement Followup Universe for Census 2000, DSSD Census 2000 Procedures
and Operations Memorandum Series #CC-3, Revised #4, Bureau of Census, June 28, 2000; and Specification for
Updating the Decennial Master Address File on June 15, 2000, DSSD Census 2000 Procedures and Operations
Memorandum Series #D-7 Revised, Bureau of Census, May 22, 2000.

                                                     20
U.S. Department of Commerce                                                  Report OSE-12065
Office of Inspector General                                                    September 2000

The bureau could also use MAF data to identify addresses with incorrect geocodes. For
example, we found two houses on an unpaved road not easily visible that were geocoded to the
wrong block. These addresses were included in LUCA 98 and block canvassing. LUCA 98
verified them, but block canvassing deleted them, perhaps because they could not be found in
the block to which they were assigned. Subsequently, LUCA 98 Field Verification verified that
they existed. No operation corrected the block number, and the units were delivered to the
DMAF assigned to the wrong block. As of April 2000, there were over one million addresses in
the DMAF where LUCA 98 Field Verification verified addresses that block canvassing
indicated should be deleted. We believe addresses that LUCA 98 Field Verification verified but
block canvassing recommended for deletion may be housing units that are assigned to the
wrong block.
While it is too late to carry out additional field operations to take advantage of MAF information
for this decennial, we are recommending that in the future, the bureau maximize use of MAF
information to identify areas where addresses are more likely to be missed or incorrectly
geocoded.

III.   Improved Software Engineering Standards Could Improve Data Quality

Addresses in the MAF must be consistent with TIGER to enable these addresses to be geocoded
to geographic locations accurately. However, because MAF and TIGER were developed
separately and are not integrated, consistency between them cannot be easily maintained. TIGER
data can be modified without ensuring that both databases have accurate and consistent
information, causing some decennial addresses to no longer link to TIGER. In addition, some
decennial addresses received a geocode from block canvassing but do not link to TIGER because
either the geocode or the TIGER data was incorrect. As of April 2000, 4.5 million decennial
addresses did not have a current link to TIGER. Although these housing units will still be in the
census, they risk being inaccurately located. The bureau needs to take steps to ensure that
decennial addresses are geocoded accurately. In the future, the bureau intends to modernize
MAF and TIGER to fix consistency issues, among other things. To make the modernization a
success, the bureau needs to adhere to its software engineering standards. These standards will
guide analysts and developers toward building accurate, well-understood system components
that work together to safeguard data consistency.

A.     Consistency Between MAF and TIGER Not Easily Maintained

Software systems build the links between the MAF and TIGER databases either automatically or
by allowing bureau staff to access TIGER on-line and add or modify TIGER data so that each




                                               21
U.S. Department of Commerce                                                             Report OSE-12065
Office of Inspector General                                                               September 2000

address links to a location and can be geocoded.29 Inconsistencies occur when the name of a
street or the range of house numbers associated with a street is modified or a street is deleted in
TIGER. Such changes cause addresses in the MAF that are already linked to that street to no
longer geocode. For example, in our field verification we found a street that was incorrectly
listed twice in TIGER. An apparent attempt to correct this problem resulted in the name of
another nearby street being changed to the same name as the street incorrectly listed twice. This
action created three streets in TIGER with the same name: one real street, one fictitious street,
and one incorrectly named street. The incorrectly named street had housing unit addresses on
the MAF and DMAF for which questionnaires had been delivered. The bureau official assisting
us with the TIGER queries explained that because MAF and TIGER are not integrated, changes
made in TIGER can cause MAF addresses to no longer link to a TIGER block.

The addresses described above are typical of addresses that will not geocode to TIGER during
production runs that occur during periodic Postal Service file updates. These addresses need to
be sent to the clerical part of the process, which then has to correct TIGER so that these
addresses will once again geocode. During the April 2000 update of the MAF, 4.5 million
decennial addresses did not geocode to TIGER.

As bureau officials have explained to us, an operation has been implemented to resolve decennial
addresses that do not geocode to TIGER when they are in blocks that border on or intersect
jurisdictional boundaries. Since this effort applies to the cases with the greatest impact on
decennial results, the bureau expects this operation to resolve the issue satisfactorily. However,
the remaining addresses are not geocodable and may be located in error or without any
geographic location when future TIGER updates are made. To prevent the loss of additional
address links to TIGER in Census 2000, we are recommending that the bureau ensure that any
further changes made to TIGER during the decennial are verified with the MAF. After the
decennial, the bureau should devise methods to resolve all addresses that do not geocode to
TIGER.

B.      Software Engineering Standards Will Support Modernization

The bureau’s FY 2001 budget submission requests funding to replace MAF and TIGER with a
modern system that will use current MAF and TIGER data. In the past, we have reported that the
software development approach used by the bureau for the decennial was not based on software

        29
           First, completely automated processing attempts to associate each address with a street and block in
TIGER to geocode the address. Addresses that do not geocode on this first attempt are sent to a process called
Master Address File Geocoding Office Resolution. This process consists of manual and on-line procedures
through which clerks use maps and other local information to identify the location of an address and the
corresponding block number. TIGER is then updated on-line with new streets, modified street names, or extended
address ranges.

                                                      22
U.S. Department of Commerce                                                             Report OSE-12065
Office of Inspector General                                                               September 2000

engineering standards for documenting requirements, reviewing software specifications and
design, and ensuring that rigorous, independent testing is carried out.30 This review found similar
issues. Several specifications used by software programmers defined requirements in a narrative
fashion, leaving room for ambiguity. After requesting written test plans, procedures, and results,
we were also told that testing is informal and not well documented. Bureau Geography Division
officials have stated that they would like to adhere to more formal software engineering standards
and are exploring the use of CASE31 tools to help set up a “top-down” software engineering
approach to analyzing MAF and TIGER functionality before modernizing these systems.
However, while CASE tools are useful, they are not a substitute for a complete life-cycle
development process based on software engineering standards.

The Census Software Development Life Cycle manual32 documents a process and standards for
the first three phases of the life-cycle approach: system requirement definition, system
requirements analysis, and software requirements definition and analysis. The manual,
augmented by software engineering standards for the balance of the software life-cycle, would
provide a helpful guide for developing a system that is soundly engineered and functionally
correct. Using the rigor that these standards provide will help system developers realize system
designs that meet user needs and maintain address data quality. Recognizing the importance of
rigorous testing and quality assurance, the Decennial Management Division recently issued
procedures to improve its software development process for CIFU33 and is also improving the
process for subsequent decennial software development. We believe that the bureau is doing the
right thing by improving its software development process and that improvement should be
expanded to the MAF and TIGER systems. Therefore, we are recommending that the bureau
adopt software engineering standards as part of the MAF and TIGER modernization.




        30
          PAMS/ADAMS Should Provide Adequate Support for the Decennial Census, but Software Practices
Need Improvement, OSE-11684, March 2000; Improvements Needed in Multiple Response Resolution to Ensure
Accurate, Timely Processing for the 2000 Decennial Census, OSE-10711, September 1999; and Headquarters
Information Processing Systems for the 2000 Decennial Census Require Technical and Management Plans and
Procedures, OSE-10034, November 1997.
        31
          Computer Assisted Software Engineering (CASE) describes automated tools that aid software
developers throughout all phases of the life cycle.
        32
             The Census Software Development Life Cycle, Bureau of the Census, November 7, 1994.
        33
             Coverage Improvement Follow-up Development Quality Assurance Plan, Bureau of the Census, May
30, 2000.

                                                       23
U.S. Department of Commerce                                                               Report OSE-12065
Office of Inspector General                                                                 September 2000


IV.     Success in Meeting Housing Unit Accuracy and Completeness Goals Should Be
        Reported

The MAF is often referred to as the heart of Census 2000 because it is intended to identify the
households that will be counted,34 and the quality of addresses for those households has a direct
impact on the accuracy and completeness of the decennial. As we noted earlier, the bureau
found that in the 1990 decennial, nearly one person in every three who were missed were not
counted because their housing unit was not in the address file. To the extent feasible, having an
accurate and complete file will reduce the cost of the census. Duplicate and nonexistent
addresses increase followup costs because of the added complexity to resolve duplicate
addresses and the attempt to visit many nonexistent and, therefore, nonresponding addresses.

Recognizing the importance of a complete and accurate list of housing units, the bureau has
created housing unit coverage performance standards and methods to evaluate if they are met.
The Accuracy and Coverage Evaluation will measure housing unit coverage. However, the
bureau has not clearly stated how evaluation results will be reported against the standard for this
decennial. The Government Performance and Results Act of 1993 requires agencies to report
performance goals, measures, and accomplishments to the President and the Congress in an
Annual Performance Plan and an Annual Program Performance Report. These documents are
appropriate vehicles for reporting on this important data quality measure and can help ensure that
the bureau works to improve data quality to improve all of its operations that rely on the MAF.35

A.      The Bureau Has Housing Unit Coverage Goals and Evaluation Plans

The bureau has already cited housing unit coverage standards in its reengineering plan. The goal
was a net housing unit coverage standard of 1 percent, with 2.5 percent missing and 1.5 percent
erroneous.36 This standard was based on the bureau’s goal of doing better than the 1990




        34
             Census 2000 MAF Program Master Plan draft, Bureau of Census, May 1999.

        35
          Performance Information Challenges, GAO/GGD-00-52. Also, see P.L. 103-62, August 3, 1993,
Government Performance and Results Act and OMB Circular A-11, Part 2, July 1999 for information on the
preparation and submission of strategic plans, annual performance plans, and annual program performance reports.
        36
            The reengineering plan cited no more than 1 percent duplicates as part of the overcoverage measurement
goal. We estimated the total overcoverage measurement goal, including duplicates and other nonexistent housing
units, as 1.5 percent based on the bureau’s goal for missing housing units of 2.5 percent and net housing unit
undercoverage measurement of 1 percent The Dress Rehearsal Report Card also cited a 1-percent net housing unit
undercoverage standard for city-style addresses.

                                                       24
U.S. Department of Commerce                                                             Report OSE-12065
Office of Inspector General                                                               September 2000

decennial, in which the net housing unit undercoverage was 1.4 percent, with 3.4 percent missing
and 2 percent erroneous.37

The bureau has a wealth of information that can be used to assess whether MAF performance
goals are being met and how performance can be improved. The bureau will have information
about MAF data quality through the Accuracy and Coverage Evaluation, which is being
conducted to determine not only the number of people missed, but also the number of housing
units missed or incorrectly counted. In addition, the bureau’s January 1999 operating plan
contains plans to obtain information about the quality of decennial data through evaluations of
key components of the decennial process. This plan outlines numerous evaluation studies and
reports on how well operations worked in building the MAF. The evaluation results will be
useful in fully understanding the results of the Accuracy and Coverage Evaluation, including
identifying successful operations and those that should be improved.

B.      The Annual Performance Plan and Report Should Be Used to Report Housing Coverage

The Government Performance and Results Act requires federal agencies to report to the President
and the Congress on performance goals for each major program activity and accomplishments in
meeting those goals. Under this law, the head of each agency is to submit a plan and report each
year on program activities. The plans are to establish performance goals to define the level of
performance to be achieved by each program activity. The performance reports are to contain
two main parts: (1) a report on the actual performance achieved as compared to the performance
goals expressed in the performance plans and (2) the plans and schedules to achieve those goals
that were not met. If a performance goal becomes impractical or infeasible, the agency is to
explain why that is the case and what legislative, regulatory, or other actions are needed to
accomplish the goal, or whether the goal ought to be modified or discontinued. Finally, the
reports should relate performance measurement information to program evaluation findings in
order to give a clear picture of the agency’s performance and its efforts at improvement.

The bureau has identified ways to measure housing unit coverage but has not stated how results
will be reported to decision-makers for this decennial. One of the decennial’s main goals is to
provide quality data. According to the Department’s Fiscal Year 2000 Annual Performance Plan,
the bureau plans to measure success in achieving data quality by its ability to achieve a 0.1-
percent net undercount.38 Because the decennial is a census of housing as well as of the


        37
          The bureau’s 1990 Housing Unit Coverage Study, Preliminary Research and Evaluation Memorandum
No. 193. Net housing unit undercoverage of 1.4 percent was derived by subtracting the bureau reported erroneous
enumerations of 2 percent from the bureau report of omissions of 3.4 percent.
        38
             The Department of Commerce Annual Performance Plan, Fiscal Year 2000.

                                                      25
U.S. Department of Commerce                                                          Report OSE-12065
Office of Inspector General                                                            September 2000

population, the bureau’s portion of the Department’s Annual Performance Plan should include
housing coverage as a performance measurement. The bureau planned to report on its Census
2000 accomplishments in a Report Card similar to that issued for the dress rehearsal; however,
these plans have been canceled. The Annual Performance Plan and Annual Program
Performance Report offer appropriate vehicles for providing this information.

        Reporting Should Include Overcoverage and Undercoverage Components

In reporting MAF goals and performance, the bureau should include not just net housing unit
coverage, but also the overcoverage and undercoverage components in order to provide a
complete report on MAF data quality.39 In the 1998 Dress Rehearsal, the bureau only reported its
address goals in terms of a net housing unit undercoverage of 1.5 percent. This means that
undercoverage and overcoverage combined, as calculated using the bureau’s estimation
techniques, should result in a net housing unit undercoverage no greater than 1.5 percent. For
example, in Columbia, South Carolina, the bureau reported net housing unit undercoverage of
2.9 percent, which did not meet the net housing unit undercoverage standard of 1.5 percent.
However, the two components that comprise the 2.9 percent net undercoverage measure provide
important insight into the extent of overcoverage and undercoverage. The MAF missed 13
percent of the housing units in Columbia and erroneously included 10.4 percent of the housing
units.40 It is also possible for there to be both a large percentage of undercoverage and a nearly as
large percentage of overcoverage, yet the net percentage of undercoverage could fall within the
standard. The details behind the overall measure provide important insights into the extent of
missing housing units and housing units counted in error that can be obscured by only reporting
net undercoverage.

Therefore, we are recommending that the bureau include the housing unit coverage standards and
results in achieving them—including overcoverage and undercoverage—as a second performance
measure in its input to the Department’s Annual Performance Plan and Program Performance
Report for fiscal year 2002. By including housing unit coverage as a measure of decennial data
quality, the bureau will attain a vehicle for reporting an important indicator of decennial success
and will link the housing unit coverage standards with the evaluation of housing unit coverage.
To justify steps to improve coverage, we are also recommending that the bureau retain the
housing unit coverage measure as input to subsequent Annual Performance Plans and Program
Performance Reports.



        39
             See Reengineering Plan .
        40
         Results of the Housing Unit Matching Phase of the Integrated Coverage Measurement, Bureau of the
Census, DSSD ICM Dress Rehearsal Results Memorandum Series Number HU-1, September 9, 1998.

                                                    26
U.S. Department of Commerce                                                 Report OSE-12065
Office of Inspector General                                                   September 2000

       MAF Quality Improvement Program Should Be Continued

To ensure that it has the data needed for future annual reporting, the bureau should continue its
quality assurance of MAF completeness and accuracy in terms of undercoverage and
overcoverage by using either of the methods discussed below. In 1997, the bureau’s evaluation
staff designed an approach that would provide an annual measurement of MAF accuracy and
completeness based on the methodology used in 1990 for statistical sampling and adjustment.
The bureau used this approach in MAF quality improvement programs in 1997 and 1998. The
1997 MAF Quality Improvement Program Pilot Study measured the completeness and accuracy
of MAF residential addresses geocoded to a block in six counties. This pilot study concluded
that, with a few modifications, the statistical adjustment methodology would provide an
effective measurement of MAF housing unit coverage. The 1998 study confirmed relatively
high MAF error rates and called for significant improvement in the MAF before the decennial.
Although these studies provided important insights into MAF quality, the 1999 study designed
to measure the results of the reengineered MAF-building approach was canceled. Census
officials cited a lack of resources and schedule concerns. We believe, however, that these types
of studies provide an important measurement of MAF accuracy and completeness. Also, the
Population Division’s methodology for comparing numbers of addresses in a county to
independent demographic benchmarks has proved useful in determining areas with potential
coverage problems. Therefore, we are recommending that the bureau continue projects designed
to evaluate MAF housing unit coverage, which should be used throughout the next decade as a
benchmark for basing MAF improvement and maintenance operations.




                                               27
U.S. Department of Commerce                                                Report OSE-12065
Office of Inspector General                                                  September 2000



                                  RECOMMENDATIONS

We recommend that the Director, Bureau of the Census, take the necessary actions to improve
address data quality for Census 2000 and future censuses and surveys, including the following:

1.     Explore causes for continuing overcoverage and undercoverage of housing units
       and use the resulting information as lessons learned when planning future MAF
       improvement operations.

       The Census Bureau concurred with this recommendation.

2.     Develop a MAF-building strategy that ensures sufficient time for MAF
       improvement operations and include as part of the strategy:

       1.     A consistent policy for address eligibility for improvement operations.

       2.     An approach for verifying addresses without block codes.

       The Census Bureau concurred with this recommendation.

3.     Study causes of duplicate addresses supplied by different sources, such as the Postal
       Service file, local/tribal governments, and block canvassing and implementing
       methods to prevent duplicates.

       The Census Bureau concurred with this recommendation.

4.     Develop an address eligibility policy that defines in advance the criteria to be used
       in selecting addresses during future censuses and surveys.

       The Census Bureau concurred with this recommendation.

5.     Issue a decision memorandum that explains the address eligibility policy for the
       final DMAF delivery of addresses to be included in Census 2000.

       The Census Bureau stated that it agrees that a Decision Memorandum should be issued
       describing the general policy for additions and deletions from the DMAF.

       We believe that the memorandum should also explain the specific criteria for including
       addresses in Census 2000.


                                              28
U.S. Department of Commerce                                              Report OSE-12065
Office of Inspector General                                                September 2000

6.    Use information in the MAF as a management tool in the future to increase the
      completeness and accuracy of the address file (for example, to identify areas where
      addresses are more likely to be missing or incorrectly geocoded).

      The Census Bureau concurred with this recommendation.

      We believe that the bureau should also consider additional techniques, such as applying
      address history data to locate geographic areas where addresses are likely to be
      missing and to pinpoint addresses likely to be geocoded in error for inclusion in its
      planned work.
7.    Ensure that any further TIGER changes are verified with the MAF so that no
      additional decennial addresses lose their link to TIGER for Census 2000.

      The Census Bureau concurred with this recommendation and provided a clarification to
      the draft report. Specifically, the bureau noted that for Census 2000, MAF addresses
      were not “lost” from the census if they for any reason ceased to match to the TIGER
      database; block codes derived from other sources, such as field work, overrode or
      substituted for TIGER block codes according to a documented scheme.

      In response to the bureau’s concerns, we clarified our report where appropriate.

8.    Devise methods to resolve addresses that do not geocode to TIGER.

      The Census Bureau concurred with this recommendation.

9.    Adopt software engineering standards as part of the MAF and TIGER
      modernization.

      The Census Bureau concurred with this recommendation.

10.   Report housing unit coverage standards and results, broken out by their
      overcoverage and undercoverage components:

      a.     As performance measures in the bureau’s input into fiscal year 2002 and
             subsequent Departmental Annual Performance Plans.

      b.     As performance results in the bureau’s input into fiscal year 2002 and
             subsequent Departmental Annual Program Performance Reports.



                                            29
      The Census Bureau concurred with the recommendation that separate measurements
      should be made and reported for MAF overcoverage and undercoverage. The bureau
      further agreed that there should be a continuous process for monitoring and improving
      MAF quality and coverage. However, the bureau stated that it would not be cost effective
      or practical to make annual national or small area MAF coverage measurements because
      doing so would divert an unacceptable level of key staff resources from planning and
      implementing actual MAF/TIGER modernization improvements. The bureau noted that
      planners for the American Community Survey and other intercensal demographic data
      collections have identified no program requirement for annual MAF overcoverage/
      undercoverage measures. According to the bureau these measures would be extremely
      useful at wider intervals and, funding permitting, it plans to generate these at several
      points in the decade in preparing for the 2010 decennial census.

      We understand the bureau’s concerns about the cost of implementing an annual
      national or small area MAF coverage measurement. However, other methods, such as
      comparing tallies of MAF addresses to demographic estimates as employed by
      Population Division, may serve as an alternative.

11.   Continue projects designed to evaluate MAF housing unit coverage that can be used
      throughout the next decade as a benchmark for basing MAF improvement and
      maintenance operations.

      The Census Bureau concurred with this recommendation.




                                             30
                     Appendix A.

           Acronyms Used in This Report


CIFU     Coverage Improvement Followup

DMAF     Decennial Master Address File

DSCMO    Decennial Systems and Contracts Management Office

DSSD     Decennial Statistical Studies Division

GAO      General Accounting Office

ICM      Integrated Coverage Measurement

LUCA     Local Update of Census Addresses

MAF      Master Address File

NRFU     Nonresponse Followup

PMP      Program Management Plan

PRED     Planning, Research, and Evaluation Division

TEA      Type of Enumeration Area

TIGER®   Topologically Integrated Geographic Encoding and Referencing
         System




                          31
